Case No.

IN THE
SUPREME COURT OF THE UNITED STATES

Miguel E. Neil - PETITIONER

vs.

State of Ohio, Franklin County, Prosecutors Office - RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
PROOF OF SERVICE
I, Miguel E. Neil, do swear that on the 27th day of August, 2021, as required by Supreme Court
Rule 29 I have given the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR WRIT OF CERTIORARI to prison authorities to be placed in the prison mailbox to be
served on each party or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents on the U.S. Mail properly addressed-to each of
them and with first-class postage prepaid to:
The Franklin County Prosecutors Office at 373 South High Street Columbus, Ohio 43215, and the
Attorney General Criminal Justice Section at 150 East Gay Street, 16th Floor Columbus, Ohio 43215.

I declare under the penalty of peijury that the foregoing is true and correct.
/

(signature)

A2

✓
!★

mm

dianemozena

MY

Case No.

IN THE
SUPREME COURT OF THE UNITED STATES
Miguel E. Neil - PETITIONER

vs.

State of Ohio, Franklin County Prosecutors Office, and Attorney General - RESPONDENTS
PROOF OF SERVICE
I, Miguel E. Neil, do swear on September 21 , 2021, that this same notary on August 27, 2021,
notarized a proof of service statement stating that:
I, Miguel E. Neil, do swear that on the 27th day of August, 2021, as required by Supreme Court
Rule 29 I have given the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA
PAUPERIS and PETITION FOR WRIT OF CERTIORARI to prison authorities to be placed
in the prison mailbox to be served on each party or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above documents [i]n
the U.S. Mail properly addressed to each of them with feEclass postage prepaid) to:
The Franklin County Prosecutor at 373 South High Street Columbus, Ohio 43215, and the
Attorney General Criminal Justice Section at 150 East Gay Street, 16th Floor Columbus, Ohio
43215.
See (Attached) Proof of Service notarized statement dated August 27, 2021.
I have given the corrections and proof to prison authorities to be placed in the prison mailbox to be
served on each party or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the U.S. Mail properly addressed to each of
them with first-class postage prepaid to the listed party’s above.

Sworn to and subscribed in my presence on this 2 0 day of September, 2021.

N0TOYPUBUC^WO
m COMMISSION EXPIRES 04^4-2024

NOT.

